SUPREME COURT OF THE UNITED STATES

YESSENIA JIMENEZ,
Petitioner,

vse DOCKET NO.

UNITED STATES OF AMERICA,

Respondent.

 

APPLICATION FOR LEAVE TO PROCEED JN FORMA PAUPERIS
COMES NOW THE PETITIONER, YESSENIA JIMENEZ, by and through
her undersigned counsel, and herein moves for leave to proceed in forma pauperis.
In support thereof, Petitioner would state:
1. Petitioner is an indigent inmate incarcerated at a federal correctional
institute in the state of Florida.
2. On this date, Petitioner is filing a Petition for A Writ of Certiorari to
the Second Circuit Court of Appeals.
3. Petitioner, who is without funds, seeks leave to proceed in this matter
in forma pauperis.
4. The undersigned counsel was appointed by the United States District
Court for the Southern District of New York to represent Petitioner pursuant to the

Criminal Justice Act (“CJA”), Title 18 U.S.C. § 3006A.
5. The undersigned counsel represented the Petitioner as CJA counsel on her

appeal to the Second Circuit in accordance Rule 4.1(c) of the Rules of the United

States Court of Appeals for the Second Circuit.
WHEREFORE, Petitioner moves to proceed in forma pauperis,

Respectfully Submitted,

= >
ge
César de Castro

The Law Firm of César de Castro, P.C.
7 World Trade Center, 34t Floor

New York, New York 10007
646.200.6166

Attorneys for Appellant Yessenia Jimenez
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true copy of the forgoing motion and
accompanying petition have been furnished by U.S. Mail to the Solicitor
General of the United States, Room 5614, Department of Justice, 950

Pennsylvania Ave., N. W., Washington, DC 20530-0001.

Dated: New York, New York
May 24, 2021

ar de’Castro
